ric^X^ V»5i or? "fwo
pO^j^S X. 0^°^ mcloJmcj over

-!•

OrJer Aoi^£ooH~o£- A^e4

Apenkex A

pwfyAtO

Pc?*'

<=£ ApDmJ}

* A,

Court of Appeal Fourth Appellate District Division Two
Kevin J. Lane. Qerk/Execotive Officer
Electronically FILED on 7/#2021 by R. Sancedo. Deputy Cleric

COURT OF APPEAL -- STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER

In re DEVIN LEE RINTYE
on Habeas Corpus.

E077130
(Super.Ct.No. FSB051032)
The County of San Bernardino

THE COURT
The petition for writ of habeas corpus is DENIED.

McKINSTER
Acting P. J.
Panel: McKinster
Raphael
Fields
cc:

See attached list

X^£\S(Ofl, 0f 5"ofen'of Coof-^af (^ji'frrhoX^^ty ®f SwvB>

& C^6t

styi

Coverp<Xf£)

i.

OrX< FrbrA CjUpfeRi^e. CcxjD-T_

2.

Nlir\dt£_ClfvU' TCorf\ S.'JfKR&GCcum

AtwraxJA.

ftS'1
?.&4

ernajr cL'no

CcNLfpyye Append i,X B'Cl)

1_
^Tcm Softer tar

"Saes i-5 of ^pmj.x B<

1

SCOUN?YOFSAN SpfjhEWNW

2
3

APR 20 2021

4
5

BY

6

!
s^toramifSez;

7

8
9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
^ 27
- 28
- 29
- 30

31
32
33

'EPUTY

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SAN BERNARDINO
Case No. WHCSB2100263

In the matter of

ORDER

Devin Lee Rintye, Petitioner
for Writ of Habeas Corpus

t

Petitioner Devin Lee Rintye filed a petition for writ of habeas corpus on April 6, 2021.
An earlier petition was denied on December 19,2016.
On December 14,2007, Petitioner was convicted by plea of the voluntary
manslaughter (Pen. Code, § 192, subd. (a)) of Mary Kathleen Oliverio with personal use of aj
firearm (Pen. Code, § 12022.5, subd. (a)). Pursuant to his plea, Petitioner waived credits^®
totaling 365 days (including conduct credit). In exchange for his plea, the trial court szJffzfy,
sentenced Petitioner to 16 years in state prison. At the time Petitioner killed his victin^^^g
*
Petitioner was 16 years and five months old. I
The petition contends Petitioner received ineffective assistance of counsel related'aSS

failure to investigate at the time of sentencing, that Petitioner should not have received thev*F
aggravated term for his firearm use (10 years), and that the trial court erred by failing to
consider factors set forth in Miller v. Alabama (2012) 567 U.S. 460. The court receiving a
petition for writ of habeas corpus evaluates it by asking whether, assuming the petition's
factual allegations are true, the petitioner would be entitled to relief. {In re Figueroa (2018) 4
Cal.5th 576, 586; In re Clark (1993) 5 Cal.4th 750, 769, fit. 9; In re Lawler (1979) 23 Cal.3d

34

35
36

The Court takes judicial notice of pertinent portions of FSB051032 and WHCJS1600253 as referenced herein.
(See Evid. Code, § 452, subd. (d).)
j

1

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36

190,194.) “If no prima facie case for relief is stated, the court will summarily deny the
petition.” (People v. Duvall (1995) 9 Cal.4th 464,475.) A procedurally defective petition
may also be summarily denied. (Gomez v. Superior Court (2012) 54 Cal.4th 293, 301.) The
petition fails to state a prima facie claim for habeas relief and is procedurally barred.
“Because a criminal defendant enjoys the right to appointed trial counsel, to a jury
trial, and to an appeal, the various procedural limitations applicable to habeas corpus petitions
are designed to ensure legitimate claims are pressed early in the legal process, while leaving
open a ‘safety valve’ for those rare or unusual claims that could not reasonably have been
raised at an earlier time.” (See In re Reno (2012) 55 Cal.4th 428,452.) Aclaim should be
asserted in a habeas corpus petition as promptly as the circumstances would allow. (Id. at
460; In re Robbins (1998) 18 Cal.4th 770, 780.) Generally, a court will not consider on
habeas review a claim that was not presented in a timely manner. (Reno, 55 Cal.4th at 459; In
re Clark (1993) 5 Cal.4th 750,797-798.) A court will not consider the merits of a delayed
petition unless the petitioner provides an adequate justification for the failure to present all
known claims in a timely manner. (Clark, 5 Cal.4th at 783 [“Our decisions have consistently
required that a petitioner explain and justify any substantial delay in presenting a claim.”],
citing In re Swain (1949) 34 Cal.2d 300, 304.) Petitioner has failed to do so, and this is a
basis to deny his claims.
Moreover, Petitioner’s plea requires denial of this petition. Petitioner’s conviction
arose from his plea, and the claims Petitioner now raises in this petition are a challenge to an
agreed-upon disposition. As such, they have been waived by virtue of his plea and there is no
basis to excuse this waiver. (See People v. Maultsby (2012) 53 Cal.4th 296, 301-304; People
v. Hester (2000) 22 Cal.4th 290,295.) Petitioner has received the benefit of his bargain and
may not thereafter trifle with the courts by attempting to better his bargain.
The Court in Hester (22 Cal.4th at 295) commented:
Where the defendants have pleaded guilty in return for a
specified sentence, appellate courts will not find error even
though the trial court acted in excess ofjurisdiction in reaching
that figure, so long as the trial court did not lackfundamental
jurisdiction. The rationale behind this policy is that defendants
who have received the benefit of their bargain should not be
allowed to trifle with the courts by attempting to better the
bargain through the appellate process. [Emphasis original.]
In People v. Couch (1996) 48 Cal.App.4th 1053,1057, the court stated:
The fact that a defendant has received a benefit in return for
agreeing to accept a specified sentence is itself sufficient to

3

estop that defendant from later seeking to unfairly supplement
this benefit by mounting an appellate attack on the trial court's
imposition of the specific sentence which the defendant agreed

4

to accept.... When a defendant maintains that the trial court's

1
2

5
6
7

8
9
10
11
12
13
14
15
16 .
17
18
19
20

21
22
23
24

25
26
27

28
29
30

31
32
33
34

35
36

sentence violates rules which would have required the
imposition of a more lenient sentence, yet the defendant
avoided a potentially harsher sentence by entering into the plea
bargain, it may be implied that the defendant waived any rights
under such rules by choosing to accept the plea bargain.
Petitioner’s plea resulted from negotiations. The Court notes that the plea agreement
in this case was just that - an agreed disposition, i.e., a settlement of the case. Petitioner is
asking that the Court modify his plea agreement to a sentence better than what he bargained
for. However, principles of contract law are part of the plea bargaining process. {Doe v.
Harris (2013) 57 Cal.4th 64, 69 [“[A] negotiated plea agreement is a form of contract and is
interpreted according to general contract principles.”], citing People v. Segura (2008) 44
Cal.4th 921, 930; see also People v. SomnangKim (2011) 193 Cal.App.4th 1355,1360 [“Plea
bargains are generally governed by a specialized form of the law of contracts. ... [L]ike the
parties to a private contract, the state and the defendant are bound by the agreement as
between themselves.” (Citations omitted.); see also, People v. Daugherty (1981) 123
Cal,App.3d 314, 321 [“Both the prosecution and the defendant are entitled to the benefits for
which they have bargained.”].)
The court in People v. Shelton (2006) 37 Cal.4th 759, 767 explained:
“A negotiated plea agreement is a form of contract, and it is
interpreted according to general contract principles. [Citations.]
‘The fundamental goal of contractual interpretation is to give
effect to the mutual intention of the parties. [Citation.] If
contractual language is clear and explicit, it governs. [Citation.]
On the other hand, “[i]f the terms of a promise are in any
respect ambiguous or uncertain, it must be interpreted in the
sense in which the promisor believed, at the time of making it,
that the promisee understood it.” [Citations.]’ [Citation.] ‘The
mutual intention to which the courts give effect is determined
by objective manifestations of the parties' intent, including the
words used in the agreement, as well as extrinsic evidence of
such objective matters as the surrounding circumstances under
which the parties negotiated or entered into the contract; the
'X

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36

object, nature and subject matter of the contract; and the
subsequent conduct of the parties. [Citations.]’ [Citations.]
Petitioner agreed to a 16 year sentence to avoid a potential sentence of 50 years to life as
charged in the information. Petitioner must abide by the reduced custody commitment he
received because he agreed to it.
The petition also fails because Petitioner has not complied with Penal Code section
1237.5. (But see People v. Allison (2019) 39 Cal.App.5th 688, 699-700 [concluding
certificate not necessaij for Superior Court habeas claim based on Penal Code section
1170.1]). As the current petition challenges the validity of Petitioner’s plea agreement, the
challenge requires a certificate of probable, and Petitioner may not circumvent that
requirement by filing a petition for writ of habeas corpus. (See In re Chavez (2003) 30
Cal.4th 643, 651 [“A defendant who challenges the validity of such a plea on the ground that
trial counsel rendered ineffective assistance in advice regarding the plea may not circumvent
the requirements of section 1237.5 by seeking a writ of habeas corpus.”], citing In re Brown
(1973) 9 Cal.3d 679, 683.)
By requiring a defendant who has resolved his case by plea agreement to obtain a
certificate of probable cause, section 1237.5 promotes judicial economy by weeding out
frivolous challenges to plea agreements. {People v. Mendez (1999) 19 Cal.4th 1084,1095.)
“Its assumption is that, as a general matter, a judgment of conviction entered on a defendant’s
plea of guilty or nolo contendere does not present any issue warranting relief on appeal, and
hence should not be reviewed thereon.” {Id. at 1097.) The petition does not acknowledge the
certificate requirement and fails to explain Petitioner’s lack of compliance. Petitioner’s
failure to obtain the certificate also underscores the untimeliness of the petition. The
certificate should be requested within the time limits for taking an appeal from the judgment
(see Cal. Rules of Court, rule 8.308(a) [“... a notice of appeal and any statement required by
Penal Code section 1237.5 must be filed within 60 days after the rendition of the judgment
...”]), but the judgment in Petitioner’s case became final in 2008. {In re Reno (2012) 55
Cal.4th 428, 459; In re Clark (1993) 5 Cal.4th 750,191-19%.)
The Court is also aware that on December 19,2014, Petitioner pled no contest to a
violation of Penal Code section 4501 for his part in an assault that he committed at Kern
Valley State Prison. Petitioner admitted that his San Bernardino County manslaughter
conviction as a prior strike under section 667, subdivision (c) through (j). In exchange for his
plea, Petitioner received the low term of two years doubled for the prior strike, plus two more
years consecutive for an unrelated offense, for a total of six years. (People v. Rintye (2017)
2017 Cal.App. Unpub. LEXIS 1502, pg. 3, 2017 WL 823571.) Petitioner was also sentenced

A

1

to 16 months by the San Joaquin County Superior Court on November 30,2020, case no.

2

STK-CR-FE-2020-0003745.
Based on the date Petitioner was sentenced in San Bernardino County, the credits
awarded by the trial court, and anticipated conduct/worktime credits Petitioner would be

3
4

5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28
29
30

31

expected to receive from the Department of Corrections and Rehabilitation, Petitioner’s
custody status is no longer related to his manslaughter conviction - the sentence from
Petitioner’s San Bernardino County case should have been completed no later than the early
part of 2020. As Petitioner’s current custody appears unrelated to his San Bernardino County
conviction, habeas relief is no longer available from the San Bernardino County court. (See
People v Aguilar (2014) 227 Cal.App.4th 60, 68 [A petitioner that “has fully served his
sentence” ... “is in neither actual nor constructive [ ] custody” and is therefore “ineligible as
a matter of law for habeas corpus relief.”]; In re Slier (2007) 152 Cal.App.4th 63,82.)
To the extent Petitioner may have lost credits while at CDCR due to misconduct (Pen.
Code, §§ 2932, subd. (e), 2933, subd. (c) [“Credit is a privilege, not a right. Credit must be
earned and may be forfeited.
see People v. Buckhalter (2001) 26 Cal.4th 20, 29-30
[“Such prison worktime credits, once earned, may be forfeited for prison disciplinary
violations and, in some cases, restored after a period of good behavior. (Citations.) Accrual,
forfeiture, and restoration of prison worktime credits are pursuant to procedures established
and administered by the Director.”]; People v. Saibu (2011) 191 Cal.App.4th 1005,1012), it
was incumbent on Petitioner to provide this Court with documentation indicating his current
custody was related to his San Bernardino County case, and specifically documentation
related to his convictions in Kern and San Joaquin counties. (In re Martinez (2009) 46 Cal.
4th 945, 955-956 [“[T]he petition should ... state fully and with particularity the facts on
which relief is sought [citations], as well as ... include copies of reasonably available
documentary evidence supporting the claim.”]; People v. Duvall (1995) 9 Cal.4th 464, 474;
People v Karis (1998) 46 Cal.3d 612, 656; In re Swain (1949) 34 Cal.2d 300, 303-304.) In
tljis regard, Petitioner has failed to satisfy his pleading burden. (Duvall, 9 Cal.4th at 474
[“Because a petition for writ of habeas corpus seeks to collaterally attack a presumptively
final criminal judgment, the petitioner bears a heavy burden initially to plead sufficient
grounds for relief, and then later to prove them.”].)
_
The petition is DENIED.
/1 nQ

32
33

Dated: April 20,2021
Hon. Gregory S. Tavill
Judge of the Superior Court

34

35
36
*

OJtB-Ci)

7.

C]rJer {’{nm 9bu^griflrZ7orl~

Q

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN BERNARDINO
San Bernardino District
247 West 3rd St
San Bernardino, CA 92415
www.sb-court.org

MINUTE ORDER
Date: 4/20/2021

Case Number: WHCSB2100263
Case Title:

In the Matter of: Devin Lee Rintye

Department 320 - SEJC

Date: 4/20/2021

Time: 9:00 AM

Judicial Officer: Gregory S Tavill
Judicial Assistant: Sylvia Ramirez
Court Reporter: Not Reported or Recorded
Bailiff: T Snyder
Appearances
Petitioner not present
Proceedings
The court having read and considered the Petition for Writ of Habeas Corpus rules as follows:
Petition denied
See written ruling for Court findings
Order Denying Petition for Writ of Habeas Corpus Filed
Notice given by Judicial Assistant
Correspondence Coversheet Generated to Mail:
Copy of Order and Minute Order.
== Minute Order Complete ==

Hearing on Petition for
Writ of Habeas Corpus

X^s\en p-f Sxiyre^t

gP CA'Wnio,

'fccV ituj

Vh&e^:A_ (ttdr ( hdciii^g CaJor^g^

1'

D^asitn in ike 5^ipre«e,(^ajf4'oft^l;4)
rrua

Awewttdc£i

fa-1

CIX)

1.
of ^L'4rnr,

P®£)^J_ of Apptndi/ £

SUPREME COURT

FILED
AUG 2 5 2021
Jorge Navarrete Clerk

Court of Appeal, Fourth Appellate District, Division Two - No. E077130
S269941

IN THE SUPREME COURT OF CALIFORNIA
£n Banc
In re DEVIN LEE RINTYE on Habeas Corpus.
The petition for review is denied.
Cantil-Sakauye, C.J., was absent and did not participate.

KRUGER
Acting ChiefJustice

Deputy

Additional material
from this filing is
available in the
Clerk's Office.

